  Management Advisory Report




 Single Audit of the State of
Wisconsin for the Fiscal Year
    Ended June 30, 2011




    A-77-13-00005| February 2013
Single Audit of the State of Wisconsin for the Fiscal Year Ended
June 30, 2011
A-77-13-00005
February 2013                                                            Office of Audit Report Summary

Objective                                Findings

To report internal control weaknesses,   The single audit reported the Wisconsin Department of
noncompliance issues, and                Administration lapsed funds from the internal service funds,
unallowable costs identified in the      accounts, and billable cost pools to the State’s General Fund to help
single audit to the Social Security      address budget shortfalls. Charges to the Government, including
Administration (SSA) for resolution      SSA, generated these funds. The estimated Federal share of the
action.                                  lapsed funds was $850,000.

Background                               Recommendations

The Wisconsin Legislative Audit          The single audit identified multiple Federal agencies, including
Bureau conducted the single audit of     SSA, responsible for resolving this finding. However, the
the State of Wisconsin. SSA is           Department of Health and Human Services will resolve this finding
responsible for resolving single audit   on the Government’s behalf. Therefore, we are bringing this matter
findings related to its Disability       to SSA’s attention, but we are not making a recommendation.
Insurance program. The Department
of Health Services is the Wisconsin
Disability Determination Bureau’s
(DDB) parent agency.
MEMORANDUM

Date:      February 27, 2013                                                              Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the State of Wisconsin for the Fiscal Year Ended June 30, 2011 (A-77-13-00005)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           State of Wisconsin for the Fiscal Year ended June 30, 2011. 1 Our objective was to report
           internal control weaknesses, noncompliance issues, and unallowable costs identified in the single
           audit to SSA for resolution action.

           The Wisconsin Legislative Audit Bureau conducted the audit. The results of the desk review
           conducted by the Department of Health and Human Services (HHS) concluded that the audit
           generally met Federal requirements. In reporting the results of the single audit, we relied entirely
           on the internal control and compliance work conducted by the Wisconsin Legislative Audit
           Bureau and the HHS reviews. We conducted our review in accordance with the Council of the
           Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection and
           Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The Wisconsin Disability Determination Bureau (DDB) performs disability determinations under
           SSA’s DI and SSI programs in accordance with Federal regulations. The DDB is reimbursed for
           100 percent of allowable costs. The Department of Health Services is the Wisconsin DDB’s
           parent agency.




           1
            State of Wisconsin, FY 2010-2011 Single Audit, http://legis.wisconsin.gov/lab/reports/12-6full.pdf, (last viewed
           January 28, 2013).
Page 2 - Gary S. Hatcher

The single audit reported the Wisconsin Department of Administration lapsed funds from the
internal service funds, accounts, and billable cost pools to the State’s General Fund to help
address budget shortfalls. Charges to the Government, including SSA, generated these funds. 2
The estimated Federal share of the lapsed funds was $850,000. 3 The corrective action plan
indicates the State will reimburse the Government once the final Federal share of lapsed funds is
determined.

The single audit identified multiple Federal programs, including SSA, responsible for resolving
this finding. However, HHS will resolve this finding on the Government’s behalf. Therefore,
we are bringing this matter to your attention, but we are not making a recommendation.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802.




                                                          Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




2
    Id. at finding WI-11-1.
3
    The single audit did not report the lapsed funds amounts by individual Federal program.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
